App. 1
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted December 21, 2018
Decided January 17, 2019
[SEAL]
Before
William J. Bauer, Circuit Judge
Michael S. Kanne, Circuit Judge
BARRY J. SMITH, SR.,
Plaintiff-Appellant,
No. 18-2408

v.

UNITED STATES OF
AMERICA, et al.,
Defendants-Appellees.

Appeal from the United
States District Court
for the Eastern District
of Wisconsin.
No. 2:17-cv-01419-DEJ
David E. Jones,
Magistrate Judge.

ORDER
The scope of our jurisdiction is limited to a review
of the district court's order of June 26, 2018. That order
denied Smith's motions to amend the complaint, for relief from the judgment, and to extend the time to appeal — the latter two motions having been filed on April
5, 2018, well after entry of judgment on January 30,
2018. The appeal — which was filed on June 28, 2018 —
is now fully briefed, and ready for decision.
We have carefully reviewed Smith's briefs — which
do not challenge the denial of the motion to extend
time to appeal — and those of appellees. Based on this

App. 2
review, we have determined that the district court did
not error in denying Smith's motions.
Smith's motion for relief from judgment was not
filed within 28 days of entry of judgment and therefore
is treated as a Rule 60(b) motion. Banks v. Chicago
Board of Education, 750 F.3d 663, 665 (7th Cir. 2014).
And our review of the motion's denial is for an abuse
of discretion, meaning that we will not disturb a district court's Rule 60(b) ruling unless we are convinced
that "no reasonable person could agree with the district court." Talano v. Northwestern Medical Faculty
Foundation, Inc., 273 F.3d 757, 762 (7th Cir. 2001).
Smith's attempt to persuade us that the district court
abused its discretion falls well short of this mark.
And, since the district court denied Smith's Rule
60(b) motion — and did not vacate the judgment or otherwise reopen the case — the court also did not abuse
its discretion in denying Smith's motion to amend the
complaint. It is well settled that after a final judgment,
a plaintiff may amend a complaint under Fed. R. Civ.
P. 15(a) only "after . . . the judgment has been set aside
or vacated." Vesely v. Armslist LLC, 762 F.3d 661, 66667 (7th Cir. 2014) (emphasis in original) (internal quotations omitted). Nothing more needs to be said.
AFFIRMED.

App. 3
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
BARRY J. SMITH, SR.,
Plaintiff,
Case No. 17-CV-1419

v.

UNITED STATES OF AMERICA,
and STATE OF WISCONSIN,
Defendants.
DECISION AND ORDER ON MOTIONS
(Filed Jun. 26, 2018)
This Court dismissed plaintiff Barry J. Smith, Sr.'s
pro se complaint against the United States of America
and the State of Wisconsin on January 29, 2018. See
Decision and Order on Motions to Dismiss, ECF No. 16.
Judgment was entered the same day. See Judgment in
a Civil Case, ECF No. 17. In his complaint, Mr. Smith
challenged restrictions on his citizenship rights that
result from his prior criminal conviction. See Civil
Rights Complaint, ECF No. 1.
On February 27, 2018, Mr. Smith filed a motion for
leave to amend pleading pursuant to Federal Rule of
Civil Procedure 15(a)(2), along with a proposed
amended complaint. ECF No. 18. The Court will deny
this motion because judgment must be vacated before
the Court can consider a motion to amend the pleading
in a closed case. Foster v. DeLuca, 545 F.3d 582, 584

App. 4
(7th Cir. 2008) (After a final judgment, a plaintiff may
amend his complaint only after successfully moving to
vacate or set aside a judgment under Federal Rule of
Civil Procedure 59(e) or 60(b).).
After the United States of America argued that a
motion for relief from judgment was necessary before
a motion for leave to amend the complaint, Mr. Smith
filed a motion under Rule 60(b)(6). Rule 60(b) of the
Federal Rules of Civil Procedure enables a court to
grant relief from a judgment only under the particular
circumstances listed in the rule. Russell v. Delco Remy
Div. of Gen. Motors, 51 F.3d 746, 749 (7th Cir. 1995).
Those are:
(1) mistake, inadvertence, surprise, or excusable neglect; (2) newly discovered evidence
that, with reasonable due diligence, could not
have been discovered in time to move for a
new trial under Rule 59(b); (3) fraud (whether
previously called intrinsic or extrinsic), misrepresentation, or misconduct by an opposing
party; (4) the judgment is void; (5) the judgment has been satisfied, released or discharged; it is based on an earlier judgment
that has been reversed or vacated; or applying
it prospectively is no longer equitable; or (6)
any other reason that justifies relief.
Fed. R. Civ. P. 60(b).
In his motion, Mr. Smith argues that it would be
in the interests of justice to reopen this case and allow
him to amend his complaint. See Motion Pursuant to
Rule 60(b)(6) for Relief from Judgment, ECF No. 21. He

App. 5
believes "the defendants [have] imposed conditions on
plaintiffs liberty that prohibit his exercise of his Second and Fifth Amendment [sic] rights in violation of
his liberty right pursuant to the Thirteenth Amendment, without a full and fair due process of law hearing
pursuant to the Fifth and Fourteenth Amendments[.]"
Id. at 1-2.
Simply mentioning multiple constitutional
amendments does not make those amendments applicable to Mr. Smith's claims. As the Court concluded in
its order on the motions to dismiss, there is no constitutional violation or due process required when some
constitutional rights are abridged as a result of a criminal conviction. ECF No. 16 at 3. The Court clearly
cited cases allowing the very limitations he complains
of his in [sic] complaint. Id. at 3-5. Mr. Smith received
due process as part of his criminal cases when he was
convicted. Any claims Mr. Smith might try to bring in
an amended complaint would be futile and, as a result, it is not in the interests of justice to reopen this
case or allow Mr. Smith to file an amended complaint.
The Court will deny Mr. Smith's motion for relief from
judgment.
Finally, Mr. Smith filed a motion for extension of
time to appeal on April 5, 2018. ECF No. 23. He submits that his motion for leave to file an amended complaint was filed on the twenty-eighth day after entry of
the Court's order dismissing his complaint. He further
argues that the motion tolled his time to file a notice of
appeal because it was really a hybrid of a motion to
amend a complaint under Federal Rule of Civil

App. 6
Procedure 15(a) and a motion asking the Court to
make additional findings under Federal Rule of Civil
Procedure 52(b). A timely motion under Rule 52(b)
stays the time for filing a notice of appeal until the
Court disposes of the motion. Fed. R. App. P.
4(a)(4)(A)(ii). This argument fails, in part because Rule
52(b) does not apply to this case.
The Court could construe Mr. Smith's motion for
leave to file an amended complaint as a motion under
Federal Rule of Civil Procedure 59 or 60, which would
have the same effect. See Fed. R. App. P. 4(a)(4)(A)(iv)
and (vi). That would be futile, though, since Mr. Smith
has not shown "excusable neglect or good cause" for an
extension of time to file a notice of appeal, which is required under Fed. R. App. P. 4(a)(5)(A)(ii). The Court
will deny Mr. Smith's motion for extension of time.
NOW, THEREFORE, IT IS HEREBY ORDERED that Mr. Smith's Motion for Leave to Amend
Pleading, ECF No. 18, is DENIED.
IT IS FURTHER ORDERED that Mr. Smith's
Motion for Relief from Judgment, ECF No. 21, is DENIED.
IT IS ALSO ORDERED that Mr. Smith's Motion
for Extension of Time for Appeal, ECF No. 23, is DENIED.
Dated at Milwaukee, Wisconsin, this 26th day of
June, 2018.

App. 8
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
BARRY J. SMITH, SR.,
Plaintiff,
Case No. 17-CV-1419

v.

UNITED STATES OF AMERICA,
and STATE OF WISCONSIN,
Defendants.
DECISION AND ORDER ON
MOTIONS TO DISMISS
(Filed Jan. 29, 2018)
Plaintiff Barry J. Smith, Sr. filed a three-page pro
se complaint on October 17, 2017, and paid the full filing fee. ECF No. 1. In his complaint, Mr. Smith names
as defendants the United States of America and the
State of Wisconsin, and he demands the full benefits of
citizenship that are denied him because he is a convicted felon. Id. The State moves to dismiss Mr. Smith's
complaint based on Federal Rules of Civil Procedure
12(b)(1) and 12(b)(6). ECF No. 5 at 1. The United
States also moves to dismiss Mr. Smith's complaint because it fails to state a claim under Rule 12(b)(6). ECF
No. 8. For the reasons set forth below, the Court will
grant defendants' motions to dismiss.
The matter was randomly assigned to this Court,
and the parties subsequently consented to the full

App. 9
jurisdiction of a magistrate judge. See 28 U.S.C.
§ 636(c) and Fed. R. Civ. P. 73(b).
Lack of Subject Matter Jurisdiction
The State argues under Rule 12(b)(1) that this
Court lacks subject matter jurisdiction over any claim
for money damages because the State has sovereign
immunity under the Eleventh Amendment. ECF No. 5
at 2. The State is correct, but Mr. Smith confirms in his
response to the motion that he is not seeking money
damages. ECF No. 6 at 6. Thus, the Court will not grant
the State's motion to dismiss for lack of subject matter
jurisdiction.
Failure to State a Claim
Rule 12(b)(6) empowers a party to "challenge the
sufficiency of the complaint to state a claim upon which
relief may be granted." Hallinan v. Fraternal Order of
Police of Chicago Lodge No. 7, 570 F.3d 811, 820 (7th
Cir. 2009). To survive a motion to dismiss, a claimant
must "state a claim to relief that is 'plausible on its
face.' "Adams v. City of Indianapolis, 742 F.3d 720, 729
(7th Cir. 2014) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007)). A claim satisfies this pleading
standard when there is " 'factual content that allows
the court to draw the reasonable inference that the defendant is liable for the misconduct alleged." Adams,
742 F.3d at 728 (quoting Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009)). A plaintiff is not required to plead particularized facts, but the factual allegations must "raise

App. 10
a right of relief above a speculative level." Twombly,
550 U.S. at 555.
In his complaint, Mr. Smith challenges the limitations on his citizenship rights and other consequences
that stem from his prior conviction of a crime. ECF No.
1. These include the right to keep and bear arms, the
right to run for political office, being asked whether he
has been convicted of a crime when testifying in court,
and being denied employment opportunities based on
his criminal history. Id. at 2-3. Mr. Smith believes that
because he has served his sentence, in his criminal
case he should no longer be subject to these conditions.
Id.
This is not the first time Mr. Smith has filed a civil
complaint in the Eastern District of Wisconsin challenging the consequences of his criminal conviction. In
at least three cases, which were all dismissed, Mr.
Smith named a variety of government entities and
public officials and made complaints about his inability to keep and bear arms and his ineligibility to run
for public office. Smith v. United States of America,
et al., No. 2:08-cv-00262-RTR (E.D. Wis.); Smith v. The
President of the United States of America, et al., No.
2:08-cv-00956-JPS (E.D.Wis.); Smith v. Unite [sic] States
Congress, et al., No. 13-cv-00206-CNC (E.D.Wis.).
In response to one of Mr. Smith's earlier civil complaints setting forth similar claims, United States District Judge J. P. Stadtmueller concluded that
limitations on a felon's right to carry a firearm, vote, or
hold public office "are well-recognized collateral

App. 11
consequences of a felony conviction, and the constitutionality of those long-standing consequences are not
legitimately disputed." Smith, No 2:08-cv-00956-JPS,
ECF No. 25 at 4. Judge Stadtmueller also cited the applicable case law upholding limitations on felons'
rights to keep and bear arms and vote. Id.
In Dist. of Columbia v. Heller, 554 U.S. 570, 626
(2008), the Supreme Court of the United States held
that the Second Amendment does not bar prohibitions
on possession of firearms by felons. Based on this precedent, Mr. Smith cannot maintain a claim that prohibitions on his ability to possess a firearm, or new
criminal prosecutions if he does, violate his constitutional rights.
"[A] ban on felons running for elective office is
valid if it is rationally related to a legitimate state interest." Parker v. Lyons, 757 F.3d 701, 707 (7th Cir.
2014). In Parker, the Seventh Circuit found that the
State of Illinois had a legitimate state interest in barring felons from elective office. Id. The court went on to
say that "even if a higher level of scrutiny applied to
restrictions on the right of ex-felons to hold office, the
claim would fail." Id. This is because "[t]he Supreme
Court has held that states may deprive convicted felons of the right to vote — a right that, unlike [a felon's]
interest in running for office, is fundamental and subject to strict scrutiny." Id. (citing Richardson v.
Ramirez, 418 U.S. 24, 56 (1974)) (emphasis in original).
Mr. Smith may not maintain a claim that prohibiting
him from running for and holding public office violates
his constitutional rights.

App. 12
Next, Mr. Smith seems to suggest that his right to
self-incrimination is violated when he testifies in court
and must truthfully answer when asked whether he
has ever been convicted of a crime. ECF No. 1 at 2. The
Court presumes that Mr. Smith is referring to Federal
Rule of Evidence 609, Impeachment by Evidence of a
Criminal Conviction. Rule 609 applies "to attacking a
witness's character for truthfulness by evidence of a
criminal conviction." The Federal Rules of Evidence
are adopted and amended by the Supreme Court, and
Rule 609 itself contains limitations regarding when
and what evidence of a criminal conviction may be presented in court. This Court has trouble understanding
how truthfully responding to a question about the
number of criminal convictions one has had could undermine the Fifth Amendment's protection against being compelled to be a witness against yourself in a
criminal case.
Mr. Smith broadly says that the defendants have
denied him employment opportunities based solely on
his previous conviction. ECF No. 1 at 3. His complaint
has no factual details that could plausibly state a claim
against defendants. In his brief in response to the
United States' motion to dismiss, Mr. Smith indicates
that he applied to work for the federal census in 2010,
but he was denied employment based solely on his
criminal conviction. ECF No. 12 at 7. Even if those
facts were included in his complaint, Mr. Smith would
not be able to state a claim against the United States.
Title VII "provides the exclusive remedy for claims of
discrimination in federal employment." Brown v.

App. 13
General Svcs. Admin., 524 U.S. 820, 825 (1976);
Mlynczak v. Bodman, 442 F.3d 1050, 1056-57 (7th Cir.
2006). But Title VII does not include protections
against employment discrimination on the basis of felony convictions. 42 U.S.C. § 2000e-2(a).
Finally, within his complaint, Mr. Smith moves the
Court to take judicial notice of his true identity as a
"Descendant of American Slaves," as opposed to his official birth certificate in 1953 that said "Negro" and his
current government identity as "African American" in
2017. ECF No. 1 at 3. The Court does not monitor the
race of litigants so there is no need for the Court to
take judicial notice in this case of how Mr. Smith selfidentifies.
III. Conclusion
NOW, THEREFORE, IT IS HEREBY ORDERED that the Motion to Dismiss by State of Wisconsin (ECF No. 5) is GRANTED.
NOW, THEREFORE, IT IS HEREBY ORDERED that the Motion to Dismiss by United States
of America (ECF No. 8) is GRANTED.
IT IS FURTHER ORDERED that this action is
DISMISSED with prejudice.
FINALLY, IT IS ORDERED that the Clerk of
Court enter judgment accordingly.
Dated at Milwaukee, Wisconsin, this 29th day of
January, 2018.

App. 14
BY THE COURT:
sl David E. Jones
DAVID E. JONES
United States Magistrate Judge

App. 15
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
March 11, 2019
[SEAL]
Before
WILLIAM J. BAUER, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
No. 18-2408
BARRY J. SMITH, SR.,
Plaintiff-Appellant,
v.

Appeal from the United
States District Court for
the Eastern District of
Wisconsin
No. 2:17-cv-01419-DEJ

UNITED STATES
OF AMERICA, et al.,
Defendants-Appellees.

David E. Jones,
Magistrate Judge.

ORDER
On consideration of plaintiff-appellant's petition
for rehearing and rehearing en banc filed on February
22, 2019, in connection with the above-referenced case,
both of the judges on the original panel have voted to
deny the petition for rehearing, and no judge in active
service has requested a vote on the petition for rehearing en banc. It is, therefore, ORDERED that the petition for rehearing and petition for rehearing en banc
are DENIED.

App. 16
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
Barry J. Smith Senior,
Plaintiff,
V.
The United States of
America, and The State
of Wisconsin.

Case# 17-C-1419

Defendants.
CIVIL RIGHTS COMPLAINT
Jurisdictional Statement: This Court has original jurisdiction of this civil rights complaint
arising under the Constitution and Laws of the
United States of America.
Complaint: Plaintiff is a direct descendant of
American slaves, hereinafter referred to as DAS.
American slaves were not citizens and had no
rights or privileges except such as those which
the government might grant them. Plaintiff is
denied citizenship because he has no rights or
privileges except such as those which the government has granted and might grant to him.
Plaintiff's citizenship was taken as punishment for crimes of which he was convicted and
sentenced according to the Thirteenth Amendment to the United States Constitution. That

App. 17
punishment is a sentence to slavery for a definite
period of time. Any definite period of time to
which defendants sentenced plaintiff to slavery
has definitely expired according to the Fifth,
Thirteenth, Fourteenth and Fifteenth Amendments to the Constitution of the United States of
America.
Defendants continue to punish plaintiff by
denying to plaintiff the rights of citizenship
Guaranteed to him by the Constitution of the
United States of America. Defendants deny
Plaintiff the citizenship right to keep and bear
arms to protect himself, his family and his property; defendants deny plaintiff the citizenship
right not to incriminate himself where he is
forced to testify in court that he is a criminal by
prosecutor and judge by answering the question,
"have you ever been convicted of a crime?". Defendants continue to label plaintiff a criminal regardless of the fact that he has paid in full for his
past crime and has not committed another; defendants deny plaintiff the citizenship right not
to be punished twice for the same crime where
they would put him on trial again based on a
crime for which he has previously been punished when he exercises the otherwise lawful citizenship right to keep and bear arms; defendants
deny plaintiff the citizenship right to a trial by
jury where they exercise subjective discretion to
deny plaintiff a fair opportunity to prosecute his
case and/or where defendants subjectively

App. 18
choose not to prosecute perpetrators of crime
against plaintiff's family; defendants deny plaintiff the citizenship right to be free from slavery
except as punishment for a crime whereof he has
been duly convicted and sentenced; defendants
deny plaintiff the citizenship right to equal protection of the law where defendants have denied
and continue to deny plaintiff employment
opportunities based solely on his previous condition of Thirteenth Amendment slavery; defendants deny plaintiff the citizenship right to
equal protection of the law where they continue
to deny plaintiff rights that are enjoyed by all
citizens who axe not serving a Thirteenth
Amendment sentence to slavery; defendants
deny plaintiff the citizenship right to run for
and/or hold elected political office based solely
on his previous condition of slavery.
Defendants have denied plaintiff the equal
protection right to politically identify himself
where his official birth certificate identified him
a Negro in 1953, and defendants now identify
him an African American in 2017; plaintiff moves
the court take judicial notice plaintiff's true
identity is Descendant of American Slaves, hereafter DAS.
Plaintiff demands a trial by jury.
Plaintiff demands full benefit of United
States of America Constitution guaranteed

App. 19
rights of Citizenship, and further requests whatever other remedies a jury finds he is entitled to.
Dated: September-26, 2017
By: /s/ Barry J. Smith Senior
Barry J. Smith Senior
3124 W. Silver Spring Dr.
Milwaukee, WI 53209
414-315-3913

